<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: GOVERNMENT PERSPECTIVES ON IMMIGRATION STATISTICS (CONTINUED)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     COMPREHENSIVE IMMIGRATION REFORM: GOVERNMENT PERSPECTIVES ON 
                   IMMIGRATION STATISTICS (CONTINUED)
=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-43

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

36-174 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 19, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable William D. Delahunt, a Representative in Congress 
  from the State of Massachusetts, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     1

                               WITNESSES

Mr. Steven A. Camarota, Ph.D., Director of Research, Center for 
  Immigration Studies
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Mr. Robert Rector, Senior Research Fellow, The Heritage 
  Foundation
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21
Ms. Shannon Benton, Executive Director, the Retired Enlisted 
  Association Senior Citizens League
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Ranking Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     4
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     5


     COMPREHENSIVE IMMIGRATION REFORM: GOVERNMENT PERSPECTIVES ON 
                   IMMIGRATION STATISTICS (CONTINUED)

                              ----------                              


                         TUESDAY, JUNE 19, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:02 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable William 
Delahunt (acting Chair of the Subcommittee) presiding.
    Present: Representatives Delahunt and King.
    Staff Present: Ur Mendoza Jaddou, Chief Counsel; Benjamin 
Staub, Professional Staff Member; George Fishman, Minority 
Counsel; and Sharon Hoffman, Minority Counsel.
    Mr. Delahunt. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order. This is a continuation of 
our hearing on June 6, scheduled at the request of minority 
Members pursuant to clause 12(j), parenthesis 1 of House Rule 
11, so as to provide additional perspectives on the topic of 
that hearing. Our witnesses today have been chosen by the 
minority, and we look forward to hearing their testimony. The 
Chair now recognizes the Ranking minority Member, Steve King, 
for his opening statement.
    Mr. King. Thank you, Mr. Chairman. I appreciate this 
hearing here today, and I appreciate the witnesses coming 
forward. The subject of this hearing is government perspectives 
and immigration statistics, and so as a backdrop as a framework 
for this, I pulled out an op-ed that is a published op-ed 
humbly written by me. I would like to read this to you as my 
opening statement, because I think it frames the subject matter 
that is before us in this hearing. The title is ``The Voyage to 
Amnestistan Aboard the Clipper Ship `America.' ''
    This giant American economy is like an enormous clipper 
ship with passengers and crew numbering some 300 million. We 
are the fastest sailing ship on the high seas, tempest-tossed 
by gusts and gales, clipping our way through the swells and 
spray. The crew of the ``U.S.S. America,'' 144 million strong, 
trims the sails, swabs the deck, cooks in the galley, cares for 
the sick, bails the bilge, and steers the course. The 
passengers on this giant clipper ship number 156 million, 
including the retired who had their turn, at the ores, the 
children who will get their turn, the unemployed who want their 
turn and the welfare recipients who are unenthusiastic about 
taking their turn. But the largest untapped group by far are 
the 70 million working age passengers who are simply not in the 
workforce.
    Then there are the stowaways, the illegal immigrants, 
totaling some 12 to 20 million or more. Five of twelve 
stowaways are passengers in steerage, only seven of twelve are 
swabbing the deck or trimming the sails of ``America.'' The 
Open Borders Lobby wants Americans to believe our economy would 
collapse without cheap labor, legal or illegal, and we must 
import by tens of millions to provide this labor. Theirs is a 
selfish and shortsighted attempt to expand their power at the 
expense of our Nation's sovereignty. If they succeed in 
granting amnesty to illegal aliens, they will sink this Nation, 
the giant clipper ship ``America.''
    Two decades have passed since the 1986 amnesty ``to end all 
amnesties.'' The Immigration Reform and Control Act was 
intended to put an end to open borders by giving amnesty to a 
million people who were in the United States illegally. At the 
time, I was appalled that Congress and the President could so 
flagrantly discount the rule of law, that they would pardon a 
million lawbreakers and reward them with the very objective of 
their crimes. Years later, we learned the 1 million illegal 
aliens intended to be pardoned by the amnesty to end all 
amnesties quickly became 3 million. The 300 percent increase 
was the result of fraud accelerated by a counterfeit document 
industry which immediately sprung up to meet the new demand. 
Today, there are probably more than 20 million illegal aliens 
in the United States. That number might have been less than a 
million if the most essential pillar of American 
Exceptionalism, the rule of law, had been respected and 
protected from 1986 through today.
    Still, with a straight face, we debate granting amnesty to 
the 12 to 20 million illegals as if amnesty for tens of 
millions of lawbreakers was a simple business transaction. A 
pardon for tens of millions of lawbreakers is not the 
equivalent of a friendly corporate acquisition of another 
company. It is a corporate raid on the American people. The 
stakes are high because America is much, much more than a 
sanctuary for pirate companies who lure stowaways and broker 
the profits from their labor at the expense of the rule of law. 
Then, they passed the billions in added social costs of their 
cheap labor on to the taxpayer. America may have become a 
welfare state since Lyndon Johnson's Great Society was 
launched, but we have no obligation to issue a paid-up debit 
card awarding the benefits of citizenship to anyone who was 
able to sneak into our country.
    Today, the scene on the bridge of ``U.S.S. America'' is the 
ship's elected senior officers, Congress, debating a 
recommendation from the captain, President Bush, that 
``America'' needs more crew to take care of the growing number 
of retiring passengers. The captain and his Open Borders Lobby 
ensigns argue that ``America'' should sail off the 
constitutionally chartered rule of law course to take on 
willing crewmen from the foreign country of ``Amnestistan.'' 
The captain argues that trimming sails, bailing, and swabbing 
is something that 70 million working age ``America'' passengers 
cannot and will not do. Regardless, they say, we have 12, 
perhaps 20, million undocumented passengers and crew--
stowaways--who would refuse to get off the boat at the next 
dock if we ask them to. But the captain and the Open Borders 
Lobby ensigns have made it clear they will not order them off 
the ship even though 90 percent of the illegal drugs abused on 
board were smuggled from ``Amnestistan.'' They will not order 
them off even though 28 percent of court-martial convictions 
are stowaways. They will not order them off ``America'' even 
though the 7 percent who are stowaways produce only 2.2 percent 
of the work. The rule of law officers need recruit only 1 in 10 
working age passengers to replace all of the 7 million working 
stowaways.
    Instead, the captain and the Open Borders Lobby officers 
want to issue an all inclusive ticket to every stowaway, except 
those in the brig, so they can eat in the mess hall alongside 
the paying passengers or with the documented crew.
    Having charted a proper course, the rule of law officers 
argue the sum total of strength, vitality and stability of 
``America'' is directly proportional to the average individual 
productivity of the crew and the passengers. These officers 
also argue the free market design of ``America'' requires a 
higher ratio of crew to passenger and high productivity from 
each crew member in order to guarantee a far more seaworthy 
vessel and to ensure safe passage for the stakeholders. Taking 
on too many passengers or unskilled crew will slow and 
eventually sink ``America.'' But none of these facts have been 
enough to sway the captain and Open Borders Lobby ensigns, some 
of whom maintain a good side business smuggling stowaways onto 
the ship.
    If we simply enforce our current laws, millions of 
stowaways, both those working and those along for the ride, 
will voluntarily disembark at the next port of entry. Their 
departure would immediately reduce the burden on the ship's 
supplies and crew. Conversely, those Americans who are now 
riding along as passengers but who join the crew will provide a 
two-for-one benefit to all 300 million. By making the switch 
from passenger to crew, they will lift the burden off those who 
are carrying them and help shoulder the load of the millions 
who would still be passengers.
    ``America'' has pulled into port at Amnestistan six times 
since the amnesty to end all amnesties. Each time Congress 
punched a ticket for the stowaways who were overlooked in 1986 
or who qualified due to misfortune. This time the captain and 
the Open Borders Lobby crowd mean to forever sail off the 
course of the rule of law, taking aboard every willing 
traveler. This time their experiment will be at least 20 times 
greater in number than ever amnestied before. This time it will 
truly be an amnesty to end all amnesties. Because this time, if 
the Open Borders Lobby wins the debate on the bridge, they will 
sink ``America'' to the deep, dark depths of the third world, 
on the shoals of Amnestistan.
    Mr. Chairman I look forward to testimony and I yield back 
the balance of my time.
    [The prepared statement of Mr. King follows:]
  Prepared Statement of the Honorable Steve King, a Representative in 
 Congress from the State of Iowa, and Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
The Voyage to Amnestistan Aboard The Clipper Ship ``America''
    This giant American economy is like an enormous clipper ship with 
passengers and crew numbering some 300 million. We are the fastest 
sailing ship on the high seas, tempest-tossed by gusts and gales, 
clipping our way through the swells and spray. The crew of the ``U.S.S. 
America,'' 144 million strong, trims the sails, swabs the deck, cooks 
in the galley, cares for the sick, bails the bilge, and steers the 
course. The passengers number 156 million, including the retired who 
have had their turn at the oars, the children who will get their turn, 
the unemployed who want their turn, and welfare recipients who are 
unenthusiastic about taking their turn. But the largest untapped group 
by far are the 70 million working age passengers who are simply not in 
the workforce. They occupy a cabin or bunk in first class or steerage, 
depending upon their means. Then there are the stowaways--illegal 
immigrants--totaling some 12-20 million. We do know that not all 
stowaways are working as crew. Five of twelve stowaways are passengers 
in steerage. Only seven of twelve are swabbing the deck or trimming the 
sails of ``America.''
    The Open Borders Lobby (OBL) wants Americans to believe our economy 
would collapse without cheap labor, legal or illegal, and that we must 
import more by the tens of millions. Theirs is a selfish and 
shortsighted attempt to expand their power at the expense of our 
nation's sovereignty. If they succeed in granting amnesty to illegal 
aliens, they will sink this nation, the giant clipper ship ``America.''
    Two decades have passed since the 1986 amnesty ``to end all 
amnesties.'' Congress passed, and President Reagan signed, the 
Immigration Reform and Control Act, which was intended to put an end to 
open borders by giving amnesty to a million people who were in the 
United States illegally. At the time, I was appalled that Congress and 
the President could so flagrantly discount the Rule of Law, that they 
would pardon a million lawbreakers and reward them with the very 
objective of their crimes. A million people rewarded for breaking the 
law!
    Years later, we learned the one million illegal aliens, intended to 
be pardoned by the ``amnesty to end all amnesties,'' quickly became 
three million. The 300% increase was the result of fraud, accelerated 
by a counterfeit document industry which immediately sprung up to meet 
the new demand. Today, there are probably more than 20 million illegal 
aliens in the United States. That number might have been less than a 
million if the most essential pillar of American Exceptionalism, the 
Rule of Law, had been respected and protected from 1986 through today.
    Still, with a straight face, we debate granting amnesty to the 12-
20 million illegals as if amnesty for tens of millions of lawbreakers 
was a simple business transaction. A pardon for tens of millions of 
lawbreakers is not the equivalent of a friendly corporate acquisition 
of another company. It is a corporate raid on the American people. The 
stakes are high because America is much, much more than a sanctuary for 
pirate companies who lure stowaways, and broker the profits from their 
labor at the expense of the Rule of Law. Then, they pass the billions 
in added social costs of their cheap labor on to the taxpayer. America 
may have become a welfare state since Lyndon Johnson's ``Great 
Society'' was launched, but we have no obligation to issue a paid-up 
debit card the benefits of citizenship to anyone who was able to sneak 
into our country. It is not as though they are Katrina survivors with a 
claim to prior contributions to the system.
    Today, the scene on the bridge of ``U.S.S. America'' is the ship's 
elected senior officers--Congress--debating a recommendation from the 
captain--President Bush--that ``America'' needs more crew to take care 
of the growing number of retiring passengers. The captain and his OBL 
ensigns argue that ``America'' should sail off the constitutionally 
charted Rule of Law course, to take on ``willing crewmen'' from the 
foreign country of ``Amnestistan.''
    The captain argues that trimming sails, bailing, and swabbing is 
something 70 million working age ``America'' passengers cannot or will 
not do. Regardless, they say, we have 12, perhaps 20, million 
``undocumented passengers and crew'' (stowaways) who would refuse to 
get off the boat at the next dock if we ask them to. But the captain 
and the OBL ensigns have made it clear they will not order them off the 
ship even though 90% of the illegal drugs abused on board were smuggled 
from ``Amnestistan.'' They will not order them off even though 28% of 
court-martial convictions are stowaways. They will not order them off 
``America'' even though the 7% who are stowaways produce only 2.2% of 
the work. The Rule of Law officers need recruit only one in ten working 
age passengers to replace all of the 7 million working stowaways. 
Instead, the captain and OBL officers want to issue an all inclusive 
ticket to every stowaway--except those in the brig--so they can eat in 
the mess hall along side the paying passengers or with the documented 
crew.
    Having charted a proper course, the Rule of Law officers argue the 
sum total of strength, vitality, and stability of ``America'' is 
directly proportional to the average individual productivity of the 
crew and the passengers. These officers also argue the free market 
design of ``America'' requires a higher ratio of crew to passenger and 
high productivity from each crew member in order to guarantee a far 
more seaworthy vessel. The only way to increase the capacity of the 
ship and to ensure safe passage for the stakeholders is to increase the 
average productivity of everyone on board. Taking on too many 
passengers or unskilled crew will slow and eventually sink ``America.'' 
But none of these facts have been enough to sway the captain and OBL 
ensigns, some of whom maintain a good side business smuggling stowaways 
onto the ship.
    If we simply enforce our current laws, millions of stowaways, both 
those working and those along for the ride, will voluntarily disembark 
at the next port of entry. Their departure would immediately reduce the 
burden on the ship's supplies and crew. Conversely, those Americans who 
are now riding along as passengers, but who join the crew, will provide 
a two-for-one benefit to all 300 million. By making the switch from 
passenger to crew, they will lift the burden off those who are carrying 
them and help shoulder the load of the millions who would still be 
passengers.
    ``America'' has pulled into port at Amnestistan six times since the 
``amnesty to end all amnesties.'' Each time Congress punched a ticket 
for the stowaways who were overlooked in 1986 or who qualified due to 
misfortune. This time the captain and the OBL crowd mean to forever 
sail off course of the Rule of Law, taking aboard every willing 
traveler. This time their experiment will be at least 20 times greater 
in number than ever amnestied before. This time it will truly be an 
``Amnesty to End All Amnesties.'' Because this time, if the Open 
Borders Lobby wins the debate on the bridge, they will sink ``America'' 
to the deep, dark, depths of the third world, on the shoals of 
Amnestistan.

    Mr. Delahunt. Thank you Mr. King. Let me just note that I 
enjoyed the maritime metaphor, coming from America's most 
pristine coastal district, Cape Cod, Nantucket and Martha's 
Vineyard, it was most enjoyable. As I indicated pursuant to 
House Rule 11 clause 2(j)(1), the minority in the Subcommittee 
is entitled, ``upon request to the chairman by a majority of 
them--`them' meaning the minority--before the completion of the 
hearing to call witnesses selected by the minority to testify 
with respect to the measure or matter during at least 1 day of 
hearing thereon.'' On Wednesday, June 6, the Subcommittee held 
a hearing on ``Comprehensive Immigration Reform: Government 
Perspectives on Immigration Statistics.'' At the request of the 
Ranking Member and the majority of the minority on this 
Subcommittee, today the Immigration Subcommittee is holding a 
minority hearing to continue the discussion. In the interest of 
proceeding to our witnesses, I would ask that other Members of 
the Committee submit their statements for the record within 5 
legislative days.
    And without objection, all opening statements will be 
placed into the record. Without objection, the Chair is 
authorized to declare a recess of the hearing.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortcomings of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007, we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. After 
that we examined further another controversial aspect of the 
immigration debate: family based immigration.
    Today we continue the vital task of eliminating the myths and 
seeking the truth. Last Wednesday's hearing dealt with probably the 
most crucial aspect underlying the immigration debate, an immigrant's 
ability to integrate, and assimilate into American society. Last 
Thursday we tackled another pressing topic, the practical issue of the 
impact of immigration on States and Localities. On Friday May 18, 2007 
we discussed the issue of the ``Future of Undocumented Immigrant 
Students,'' and on May 24, 2007 we examined the ``Labor Movement 
Perspective'' on comprehensive immigration reform. Today we will 
examine the perspectives of the business community.
    Much of the rhetoric that those in the anti-immigrant camp have 
repeated in their efforts to deter comprehensive immigration reform is 
based in pure ignorance. Webster's dictionary defines ignorance as, 
``1. without knowledge or education. 2. Displaying lack of knowledge or 
education. 3. Unaware or uninformed: Oblivious.'' When I hear the 
rhetoric of those individuals in the anti-immigrant camp this very 
definition comes to mind, because either these individuals are actually 
without knowledge, willfully display a lack of knowledge, are simply 
uninformed, or just oblivious to the facts.
    Individuals in the anti-immigrant camp consistently promote 
misconceptions about the undocumented population that serve this debate 
no justice. For example many argue that illegal immigrants are a burden 
on our social services, they are criminals, they are ``taking'' 
American jobs, they hate America, and they are harming our economy, and 
depressing the wages of American workers.
    Over the last two months we have debunked all of these myths. Fact 
of the matter is that most illegal immigrants do not utilize social 
service programs out of fear of being detected; they have an 
incarceration rate that does not compare to those of native born 
individuals; the concept that they are taking jobs conflicts with all 
the data that suggest that there is a labor shortage in the 
agriculture, construction, and service industries; individuals who come 
here to live the American dream cherish the opportunity and their 
children are as American as apple pie; and we have heard testimony 
before this subcommittee that illustrates the fact that immigration 
benefits our economy, and the impact of immigration on wages is small 
if any.
    Along those same lines the biggest dispute regarding immigration 
statistics is the actual number of undocumented workers who are present 
here in the United States, the estimates range from 12 million to 20 
million. Two weeks ago, we heard from Dr. Ruth Ellen Wasem of the 
Congressional Research Service, which agency has studied this subject 
in detail.
    The CRS reports that according to the Census Bureau there were 36 
million foreign born people who resided in the United States in 2005. A 
further look at this population reveals that 34.7% of these individuals 
were naturalized; 32.7% were legal permanent residents; 2% were 
temporary; and 30.7% were unauthorized. These statistics seem to verify 
the fact that there are about 12 million undocumented workers here in 
the United States as opposed to 20 million.
    The witnesses testifying today have been called to this hearing 
held at the request of the minority to challenge the Government's 
statistical analyses. An opposing view will be presented by the 
following witnesses:

        Steven Camarota
        Director of Research
        Center for Immigration Studies

        Robert Rector
        Senior Research Fellow
        The Heritage Foundation

        Shannon Benton
        Executive Director
        TREA Senior Citizens League

    I look forward to the testimony of these witnesses, Madam 
Chairwoman, I yield back my time.

    Mr. Delahunt. We will now proceed to hear the testimony of 
the witnesses before us today. First, we would like to welcome 
Steven A. Camarota, Director of Research at the Center For 
Immigration Studies in Washington, D.C. He holds a doctorate 
from the University of Virginia in public policy analysis and a 
master's degree in political science from the University of 
Pennsylvania.
    Next we would like to welcome back Mr. Robert Rector, a 
senior research fellow at the Heritage Foundation. Mr. Rector 
graduated with a bachelor's degree from the College of William 
& Mary and a master's degree from Johns Hopkins University.
    Finally, I would like to extend our welcome to Shannon 
Benton, the executive director of the TREA Senior Citizens 
League. Prior to her work at TREA, she had a 14-year military 
career as a medical corpsman in the U.S. Army. She holds a 
bachelor's of science degree in management.
    Each of your written statements will be made part of the 
record in its entirety. I would ask that you now summarize your 
testimony in 5 minutes or less. To help you stay within that 
time, there is a timing light at the table. When 1 minute 
remains, the light will switch from green to yellow, and then 
to red when the 5 minutes are up.
    Mr. Delahunt. Dr. Camarota, please begin.

 TESTIMONY OF STEVEN A. CAMAROTA, Ph.D., DIRECTOR OF RESEARCH, 
                 CENTER FOR IMMIGRATION STUDIES

    Mr. Camarota. I would like to thank the Subcommittee for 
inviting me, and my name is Steve Camarota. I am Director of 
Research at the Center for Immigration Studies. Let me first 
talk about illegal aliens and the retirement programs. Illegals 
are mostly of working age and cannot collect benefits, thus 
they are currently a net positive for Social Security and 
Medicare. Illegals paid out $7 billion to these programs or an 
amount equal to about 1.5 percent of the programs' 
expenditures. That $7 billion figure, I should point out, is my 
estimate, and it is sometimes erroneously attributed to others, 
but, in fact, it is my estimate.
    Although illegals are a benefit to retirement programs, in 
that same research where I estimated the $7 billion, I also 
found that the illegal aliens are a net drain on the rest of 
the Federal budget. So all of the net benefit they create for 
Social Security and Medicare is eaten up by the drain they 
create in the rest of the budget. The net fiscal drain, all 
taxes paid minus all services used, was about $10 billion in 
2002. It is also important to understand that even the 
relatively tiny positive effect they have on Social Security 
and Medicare is partly due to their inability to collect 
benefits. If legalized, they would represent a long-term drain 
because illegal aliens are overwhelmingly individuals with very 
little education and thus have low incomes. Social Security 
pays more generous benefits to low-income workers than what it 
pays to higher income workers.
    So if legalized, you would be adding a lot of low income 
poor folks to the system and further straining it. Let me talk 
more generally about immigrants and Social Security. All the 
research shows that immigration is only a tiny impact on the 
solvency of the program. According to the Social Security 
Administration, if legal immigration was cut by 41 percent from 
800,000 to 470,000, it would increase the program's projected 
deficit by only 2.5 percent. And it is not clear that even this 
tiny benefit exists because the Social Security Administration 
assumes that legal immigrants have exactly the same wages as 
native-born individuals from the moment they arrive and thus, 
make tax payments roughly similar. This runs contrary to a 
large body of literature.
    Immigration has such a tiny impact on Social Security 
because immigration is only a tiny impact on the aging of 
American society. The 2000 census showed that if all post-1980 
immigrants and all of their U.S.-born children were not 
counted, the working age share of the population, 15 to 64, 
would be about 66 percent. If we count all the immigrants in 
the 2000 Census, the working age share of the U.S. population 
is exactly the same, about 66 percent. Looking to the future, 
Census Bureau projections show immigration, regardless of its 
level, has only a tiny impact on the aging of society because 
immigrants age just like everyone else. They are not that much 
younger to start, and their fertility, while somewhat higher, 
converges with native fertility pretty quickly.
    To put it a different way, immigration adds to the working 
age population and it also adds to the population too old or 
too young to work. No serious demographer argues that 
immigration makes America much younger.
    Finally, I would like to talk about the labor market and 
the idea that we are desperately short of less educated 
workers. There is no evidence of a labor shortage, especially 
at the bottom of the labor market. If there were, wages and 
benefits and employment should all be increasing very fast as 
employers bid up benefits and so forth for workers in a 
desperate attempt to retain and attract workers who don't have 
a lot of education. That is not what is happening. The share of 
native-born Americans who don't have a high school degree, who 
are in the labor force, has been declining. It even declined 
from 2005 and 2006. The share of Americans who only have a high 
school degree has been declining, again within the last year. 
There are 23 million adult natives with a high school degree or 
less who are either unemployed or not in the labor force right 
now. There are 10 million teenagers 15 to 17 who are unemployed 
or not in the labor force right now.
    In comparison, there are about 7 million illegal aliens 
holding jobs. If we look for a labor shortage while looking at 
wages, again we find the same pattern. Hourly wages for men 
with less than a high school education and hourly wages have 
for men with only a high school education have actually 
stagnated, and in some cases, declined in real terms in the 
last 5 years, all of which is a strong indication that there is 
no labor shortage.
    It is very hard to find an economic reason to allow in 
large numbers of less educated immigrants. We seem to have a 
lot of such workers. Such workers tend to a net drain on public 
coffers. Immigration, legal or illegal, cannot fix the problem 
of an aging society. We will have to look elsewhere to deal 
with that issue.
    Mr. Delahunt. Thank you, Mr. Camarota. That was 
extraordinarily well done.
    Mr. Camarota. Thank you.
    [The prepared statement of Mr. Camarota follows:]
                Prepared Statement of Steven A. Camarota
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Mr. Rector.

    TESTIMONY OF ROBERT RECTOR, SENIOR RESEARCH FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Rector. Thank you for the opportunity to be here today. 
I am going to talk about the long-term fiscal effects of 
granting amnesty to the current illegal population. When we 
start with that, we have to recognize that one of the 
predominant characteristics of this illegal immigrant 
population, aside from the fact that they are very poorly 
educated, is that there are very few of them that are elderly, 
virtually no elderly people among that group.
    So one of the effects that you get by granting them legal 
status is that immediately, for example, in the Senate bill 
from the moment they get a probationary Z visa, they have a 
Social Security number, they begin to contribute into Social 
Security and earn entitlement to Social Security and Medicare 
that they categorically don't have now. And that means that 
about 30 years from now, they will be taking out from those 
programs as well as ancillary programs from the elderly, such 
as Supplemental Security Income and Medicaid.
    So if we assume there are 12 million illegals, about 10 
million of those are adults, we must assume that looking at the 
current types of benefits received by that type of immigrant 
when they turn elderly, they will receive a minimum of about 
$17,000 a year in net benefits each year after retirement, and 
they will live, according to current projections, at least 18 
years into retirement.
    So that comes to a net cost in retirement years of over 
$300,000 from a group that will have contributed very little in 
taxes during its working years. In fact, they are almost 
certainly net fiscal takers even during their working years. 
But when you take those figures and multiply them by the 10 
million adults that we would give amnesty to, allowing for 
certain attrition and mortality, you come up to a net cost on 
the taxpayer in retirement of over $2.5 trillion. That is an 
extraordinary sum.
    Another way of thinking about this is if we are talking 
about adding 5 to 10 percent on an increase in Social Security 
beneficiaries and 30 years from now at a point in which Social 
Security will already be running an annual deficit of $200 
billion that we can't even possibly begin to imagine how we 
will pay for.
    So we are going to add on another $8, $9 million 
predominantly high school dropout beneficiaries. I guess if you 
are already bankrupt, you don't actually have to take into 
consideration the cost of what you are doing. There are certain 
factors that could actually lead this estimate to be 
considerably on the low ball. One is that the way that I costed 
for that estimate, the cost of an elderly immigrant retiree was 
based on 2004 data. But all data showed that, for example, 
medical costs and the Medicaid and Medicare programs expanded 
roughly 2 percent faster than the consumer price index. So that 
in real deflated terms, those benefits for the retirees 30 
years from now would probably be about 50 percent higher in 
today's dollars than the ones that I used.
    Also the bill does not have a provision at the present time 
to allow spouses to enter from abroad. If an illegal immigrant 
has a spouse or a child abroad, we are to assume that they will 
be kept there forever. That does not sound like the way that we 
make decisions in this country, and I expect that we will also 
allow in spouses and children from abroad. That can add as much 
as an additional 4 or 5 million immigrants on top and that will 
add to the additional cost. And then there is the issue of 
fraud. Fraud could be extensive and also move up the number of 
people entering into the system and costing the system.
    On the other hand, there are some factors that might bring 
this down. For example, if the second generation children of 
these immigrants themselves become net taxpayers, that could 
reduce the cost somewhat. What I would say fundamentally is 
that there are two arguments that I have seen advanced against 
this. One is to quote the Social Security study itself. It 
shows that immigrants are a net positive. That study, as Mr. 
Camarota has mentioned, is based on assuming the immigrant has 
the skill level and earnings of the average American. The 
second is that you simply cannot analyze Social Security in 
isolation. It is true that low-skill immigrants contribute 
maybe $3,000 a year to Social Security. But if they draw down 
10 times that much in benefits from other programs and other 
revenue sources, the government is not better off.
    This will become dramatically clear about 10 years from now 
when Social Security costs will increasingly be funded not by 
Social Security taxes but by general revenue. If there is a 
drawdown on general revenue because a working-age immigrant is 
drawing more in, say, welfare benefits or other types of 
benefits, then that puts additional strain on funding the 
retirement system. It doesn't make it better. Overall granting 
amnesty to illegal immigrants is not only profoundly unfair, it 
will be profoundly costly to the U.S. taxpayers.
    Mr. Delahunt. Thank you, Mr. Rector.
    [The prepared statement of Mr. Rector follows:]
                  Prepared Statement of Robert Rector
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Ms. Benton, please proceed.

 TESTIMONY OF SHANNON BENTON, EXECUTIVE DIRECTOR, THE RETIRED 
          ENLISTED ASSOCIATION SENIOR CITIZENS LEAGUE

    Ms. Benton. Congressman Delahunt, Ranking Member King, and 
guests, thank you for having me here today to present 
testimony. My name is Shannon Benton, and I am the executive 
director of The Senior Citizens League, also known as TSCL. Our 
organization is a proud affiliate of The Retired Enlisted 
Association. TSCL is under the direction of our chairman, Ralph 
McCutchen and an all volunteer board of trustees comprised of 
retired veterans. We have more than 1 million active senior 
citizen members and supporters nationwide who are concerned 
about the protection of their Social Security Medicare, 
veterans and retiree military benefits. Allow me to make clear 
right here at the beginning, TSCL is in no way opposed to 
lawful immigration. We believe it is a vital part of the 
foundation of our country. Some estimates, including those by 
the Pew Hispanic Center, have suggested there are nearly 12 
million illegal immigrants in the United States from all over 
the world. Seemingly, the lack of law enforcement and the 
potential for a better life have led to staggering numbers of 
immigrants coming to the U.S. both illegally and legally. TSCL 
applauds Congress for attempting to address the immigration 
issue.
    However, we fear that a little-known loophole in the Social 
Security Protection Act of 2004 has not been addressed in 
Senate immigration bill S. 1348, and that not addressing this 
will result in significant damage to the already strained 
Social Security trust fund. In fact, TSCL previously estimated 
this loophole could cost more than $966 billion in Social 
Security benefits by the year 2040. Because of this loophole, 
we believe noncitizens who worked illegally without 
authorization currently or at some time in the past could 
become entitled to Social Security benefits.
    According to the Government Accountability Office as of 
2003, the Social Security Administration had issued a total of 
more than 7 million nonwork Social Security numbers. Audits by 
the Social Security Inspector General have found that these 
nonwork numbers are widely abused by illegal workers. According 
to the GAO, and I quote, ``There are millions of noncitizens 
assigned nonwork Social Security numbers before 2004 who may 
qualify for benefits in the coming years,'' unquote, because 
the Social Security Protection Act of 2004 does not affect 
them.
    Some noncitizens enter the country with work authorization 
but then overstay their visas once their temporary work 
authorization expires, essentially continuing to work in the 
United States illegally. Because of this, TSCL recently 
released a projection of the cost of benefits based on illegal 
work. The estimate which was produced by an independent Social 
Security and Medicare policy analyst for TSCL found that more 
than 2 million nonwork Social Security number holders could 
become eligible for Social Security benefits.
    For a complete explanation of all the assumptions that were 
used to calculate the cost, we would ask that you please refer 
to our written testimony. However, in a nutshell, the equation 
used to calculate the $966 billion dollar cost to Social 
Security from 2008 to 2040 is 2,065,594 persons with nonwork 
Social Security numbers which was adjusted annually for 
mortality, and multiplied by $15,642, the annual low-income 
family benefit that was adjusted annually also for a 2.2 
percent COLA equals $966 billion. We have attached to our 
written testimony our detailed analysis, titled ``Cost of 
Illegal Work: Immigrants With NON-Work Social Security 
Numbers.''
    Although S. 1348 in its original text does not address the 
loophole, an amendment was offered by Senator Kay Bailey 
Hutchison that would prevent Social Security credit for periods 
without work authorization from being counted from the start 
date of January 1, 2004.
    Although this amendment passed, it does not cover Social 
Security numbers issued between 1974 and 2003. TSCL believes 
that the Social Security Protection Act of 2004 should be 
amended to close the apparent loophole, allowing credit earned 
while using a nonwork or invalid Social Security number. There 
have been several pieces of legislation introduced that would 
do just that, including House resolution bill 736, the No 
Social Security For Illegal Immigrants Act.
    In closing, TSCL respectfully encourages Members of 
Congress to request that the Congressional Budget Office 
conduct a realistic long-term study of the effectiveness 
loophole that it could have on Social Security's trust fund. 
Our mission, and we believe that of Congress as well, is to 
ensure the solvency of Social Security for retirees and the 
disabled who live in the United States. Again, it is important 
to us that we stress TSCL is not anti-immigration. We are for 
protecting solvency in the Social Security trust fund. Thank 
you for your time and opportunity to present testimony about 
the possible $966 billion hemorrhage to the Social Security 
trust fund. I would be happy to address any questions you may 
have.
    [The prepared statement of Ms. Benton follows:]
                  Prepared Statement of Shannon Benton
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Ms. Benton. We will now proceed to 
questions for the witnesses, and I will begin by recognizing 
Mr. King for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. Thanks for your 
testimony, all of you. And Ms. Benton, first I would ask you if 
you could elaborate for this panel about the extent that you 
went through to get a copy of the totalization agreement, that 
degree of difficulty, and why you think it was so difficult.
    Ms. Benton. Well, we don't want to speculate on why it was 
so difficult. That would be--anybody's guess would probably be 
as good as ours. We requested through routine Freedom of 
Information Act channels to receive a copy of the totalization 
agreement approximately 4\1/2\ years ago. Back in December, 
ironically just before the long New Year's Eve weekend, we were 
notified that we did, indeed, get a copy of that. Prior to that 
though, we did have to file a lawsuit against the Department of 
State and the Social Security Administration before a copy of 
it would be released.
    Mr. King. Was it a FOIA Act?
    Ms. Benton. Yes, it was, sir.
    Mr. King. Thank you, Ms. Benton. And I should say that in a 
free country, you shouldn't have to jump through all those 
hoops to get access to information that could turn the destiny 
of America. Thanks for doing that.
    Ms. Benton. Yes, sir.
    Mr. King. It is a service to everybody in this country to 
have access to real information. Somebody had to take the 
initiative, and you did. Mr. Rector, I just reflected on the 
last time you testified before this Committee, and I believe 
that at the conclusion of that Committee some of your 
conclusions, in fact, some of your statistics were challenged. 
And the numbers of illegals who would be granted amnesty at 
that time; the version of the Senate bill was challenged. There 
was also a report introduced into the record by the Immigration 
Policy Center. I actually didn't know who they were and still 
don't. I asked for their report. I found one that was 10 years 
old.
    I didn't find the report that was current that contradicted 
your statistics or your conclusions that you had drawn. What I 
did find was an opinion that was written against yours. But it 
didn't bring any other stats into play that I could see. Would 
you care to comment on that? You know, I will agree with the 
comment that was made by the Chair of the time. We are entitled 
to our opinions, but not to the facts, or our choice of the 
facts at least. Would you please provide for this Committee 
your response to that?
    Mr. Rector. I think that that study basically made two 
points. One was a point that is often repeated, that immigrants 
have restricted access to welfare. Therefore, everything that I 
have to say must be inaccurate because I show immigrants 
getting a lot of welfare. And the 1996 Welfare Reform Act 
basically meant that low-skill immigrants could no longer be a 
fiscal burden. I find that rather humorous since I played a 
very large role in writing that act, including the immigration 
provisions.
    And that criticism is simply unfounded because they didn't 
bother to read the actual methodology, provided I think on page 
9 of the report where the way that I calculate immigrant 
receipt of any benefit, including means tested welfare 
benefits, is simply to go into the Census record, find the 
immigrant, and ask, does the immigrant report receiving food 
stamps? Does the immigrant report receiving women, infants, and 
children assistance? Does it report receiving Medicaid? Does it 
report receiving the public housing benefits or TANF benefits 
or anything like that? There are a few cases where receipt of 
benefits is imputed by Census rather than based on self-report 
by the immigrants themselves. The principle one, there is the 
earned income tax credit, and I specifically adjusted the 
conclusions to allow for the fact that illegal immigrants would 
be less likely to get the earned income tax credit.
    So you know, it is simply inaccurate. The reality is that 
low-skilled workers in the United States, on average their 
households, receive about $10,000 a year in means-tested 
welfare. They tend to receive that at every stage of the life 
cycle. It is not always the same program. And that is based on 
what they told us they got. And it doesn't matter whether it is 
an immigrant or a nonimmigrant.
    Mr. King. I will point out, we had testimony before this 
Committee, the majority's witness who represented Los Angeles 
County, that they make their own distinction between legal and 
illegal. I would ask a quick question of Dr. Camarota. I just 
appreciate what you brought here with regard to how America 
doesn't get younger with immigration. That seems to be 
relatively unique. Could you expound on that little bit, how 
you came to that curiosity that brought you to this conclusion.
    Mr. Camarota. Well, you can look at projections, or the 
Census Bureau's projections, you can look at the actual Census 
data taken on all the illegal immigrants, recalculate it for 
age, recalculate the share of the population that is of working 
age. Here is a way of thinking about it, you take a June 
current population survey. The total fertility in the United 
States is about 2.1 children per woman. Take out all the 
immigrants, and recalculate it. You know what it is, it is 2. 
Immigration slightly increases the total fertility rate in the 
United States. Whether we do current data or whether we do 
projections in the future, immigration has only a tiny effect 
on the aging of American society because the immigrants age 
like everyone else.
    Mr. King. Thank you, Dr. Camarota. I yield back.
    Mr. Delahunt. You don't have to yield back, Mr. King 
because your time is expired.
    I am going to ask just very few questions. But before I do, 
and we adjourn for the day, I want to thank the witnesses for 
their testimony today. We appreciate you adding your useful 
perspectives to the important issues we are now considering as 
we work on reforming our Nation's immigration laws.
    I have a question that has just popped into my mind. Let me 
address it to Dr. Camarota. And I think you indicated validly 
that in terms of Medicaid and Social Security, the reason for 
the net plus, if you will, is predicated on the fact that the 
illegals are reluctant in the vast majority of the cases, many 
of whom presumably assume false names, don't collect for fear 
of apprehension and the ensuing proceedings.
    Mr. Camarota. And the young age. Right, most of them are 
under 65. Even if they were legal, they wouldn't be getting it.
    Mr. Delahunt. Right. And then I was thinking, you know, 
most employers hopefully are acting in good faith. And they 
withhold income tax. Has there ever been a study done in terms 
of the income taxes withheld from a paycheck to an illegal? 
Because presumably I am inferring that the illegal would be 
reluctant to seek a refund, if you will. For example, the 
earned income tax credit, et cetera. Has that ever been 
discussed in the literature at all?
    Mr. Camarota. Yes. I have an estimate for how much illegal 
aliens pay in everything from excise taxes to income taxes. It 
is a lot. It is $4,200 per family. The problem is, they created 
about $7,000 in costs for the Federal Government for a net 
drain. The other thing is that I should tell you that----
    Mr. Delahunt. Can I ask the question?
    Mr. Camarota. Sure. Go ahead.
    Mr. Delahunt. What is the income--I am just curious, what 
is the net, if there is a net, positive in terms of the Federal 
Government withholding, if you have calculated that. In other 
words, I am saying, we all get our paychecks. There is a 
certain amount withheld, I would presume illegals do not file 
income taxes. That amount of withholdings, has that ever been 
calculated? I mean, if they were legal, presumably it would be 
refundable.
    Mr. Camarota. Yes. I should say that the Inspector General 
of the Treasury Department didn't look--but they tried to pick 
out all the illegals who filed income tax returns, and I 
believe the figure for 2004 was that they refunded about $10 
billion to illegal aliens in that year.
    Mr. Delahunt. How much did the government make off of the 
failure to----
    Mr. Camarota. Per household, I have estimated that illegals 
pay about $1,400 a year to the Federal Government in income 
tax. They also pay other taxes as well.
    Mr. Delahunt. I appreciate the answer to that, $1,400. 
Again, I think it was you, Dr. Camarota, that talked about the 
second generation--maybe it was Mr. Rector. But let me direct 
the question to you.
    Presumably those who come to this country legally are 
similarly situated in terms of their education level. Is that a 
fair statement?
    Mr. Camarota. The legal immigrant population is very 
diverse. There are a whole lot of folks who come with graduate 
degrees, but according to the new immigrant survey, about 38 
percent of new legal immigrants also haven't graduated high 
school. Now people improve their education after they get here 
too, so keep that in mind. But a very large share of legal 
immigrants also have----
    Mr. Delahunt. I guess the point that I am saying, that 
first generation of legal immigrants to this country, do they 
pose a deficit or a net plus in terms of----
    Mr. Camarota. It is a good question. Let me give you an 
answer this way----
    Mr. Delahunt. Or do we wait for the second generation?
    Mr. Camarota. Our hope is the second generation. We are not 
sure how that is going to work out. Basically, what seems to 
matter is not your legal status, but your education. If you are 
legal and come without a high school degree, you are more of a 
fiscal burden. If you are legal and come with a college degree, 
you are large fiscal benefit. That is sort of the answer. It 
appears that at the Federal level, legal immigrants are 
actually somewhat of a benefit. And at the State and local 
level, somewhat of a drain. If you want sort of the best--but 
what seems to matter most is the education level, not the legal 
status.
    Mr. Delahunt. Thank you. And without objection, Members 
will have 5 legislative days to submit any additional written 
questions to you, which we will forward and ask that you answer 
them as promptly as feasible to be made part of the record. 
Without objection, the record will remain open for five 
legislative days for the submission of any other additional 
materials. And with that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
